No. ______________
(Capital Case)
In the

Supreme Court of the United States
QUINTIN PHILLIPPE JONES, Petitioner,
v.
BOBBY LUMPKIN, Respondent.
On Petition for Writ of Certiorari to the
Texas Court of Criminal Appeals
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR
WRIT OF CERTIORARI filed in this case complies with the typeface requirement of
Supreme Court Rule 33.1(b) because it was prepared in Century Schoolbook 12-point
for the text and 10-point for the footnotes and contains 39 pages as allowed by
Supreme Court Rule 33.2(b), excluding the parts that are exempted by Supreme
Court Rule 33.1(d).
Respectfully submitted,

/s/ Michael Mowla
Michael Mowla
Michael Mowla
P.O. Box 868
Cedar Hill, TX 75106
Phone: 972-795-2401
Fax: 972-692-6636
michael@mowlalaw.com
Counsel of Record
Date: May 17, 2021

